                                NATIONAL SCIENCE FOUNDATION
                                    4201 WILSON BOULEVARD
                                                                         1
                                  ARLINGTON, VIRGINIA 22230               '111


    OFFICE OF
INSPECTOR GENERAL




         MEMO TO: File

         PROM:

         DATE:

         SUBJECT:
                           S*   -
                           March 20,2001

                          Case Closeout, #I97090050




                                                               -
         1.         The Defense Criminal Investigative Service (DCIS) in cpnjunction with
                    the Office of Inspector General, National Science Foundation (OIG-NSF)
                    investigated an allegation involving fiaud.            11'1
                                                                                 11 _ _
        2.         The investigation revealed that the President,                 a n d




                  -
               , ' Vice
                   , tnediserP                         of




                -
                  C),were involved in altering resumes of          staff in )rder to become
                   more competitive for granttcontract proposals. I)previously submitted
                   a proposal to NSF utilizing the fiaudulent resumes.       I!
                                                                                 11



        3.      The case was presented for prosecution to the United ~tatksAttorney's
                Office, which accepted the case.           pled guilty to q e e counts and
                        pled guilty to two counts of Major Fraud against the United States,
                in violation of Title 18 USC 9 1031. Sentencing took pla& on January 26,
                2001, in the United States District Court, Eastern District 4f ~ i r ~ i n i a .
                         was sentenced to five months with the United Stafes Bureau of
                Prisons and fined $70,769. -was         sentenced to eight months in
                community confinement, and fined $36,326.                             I /j




        4.      This investigation is closed and no hrther action is being &en by OIG at
                                                                            I
                this time.
